CERTIFICATE OF SERVICE
Thereby certify that on August 22, 2019, in compliance with Supreme Court
Rules 29.3 and 29.5(b), the foregoing Application for An Extension of Time to File a
Petition For A Writ of Certiorari was served on counsel of record for the respondent

via third-party commercial carrier and via electronic mail.

 

Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Avenue, NW
Washington, D.C. 20001
(202) 942-5000
stanton.jones@arnoldporter.com
